               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   U.S. Postal Service Data Governance

                       Audit Report




                                              April 23, 2013


Report Number DP-AR-13-004(R)
                                                                            April 23, 2013

                                                                     U.S. Postal Service
                                                                      Data Governance

                                                      Report Number DP-AR-13-004(R)



BACKGROUND:
The U.S. Postal Service operates one of       WHAT THE OIG FOUND:
the largest information technology            The Postal Service could improve
infrastructures in the world and has an       management of critical data to assist
inventory of 795 computer applications.       managers and employees to achieve
Data from many of those applications          strategic and operational goals. We
are collected into data repositories and      identified 148 data-related issues in OIG
shared widely within the Postal Service.      reports issued in FYs 2009 through
Using those assets to make informed           2012. The majority of the issues
decisions is particularly important for the   involved unreliable or inaccurate data or
Postal Service, as declining revenue,         were caused by an absence of policies
the struggling national economy, and          or the Postal Service not enforcing
the increasingly digital nature of the        existing policies.
world threaten its core business. One of
its key strategies is to leverage its         Although the Postal Service defined a
strengths by integrating data to improve      structure for a data governance program
business decisions.                           in 2003, full roles and responsibilities
                                              were not uniformly adopted across the
In fiscal year (FY) 2012, the U.S. Postal     enterprise. Also, limitations in the Postal
Service Office of Inspector General           Service’s data governance program
(OIG) conducted a series of audits            placed the Postal Service at risk to
related to how the Postal Service uses        potential vulnerabilities that could affect
data to manage its operations. We also        data quality, availability, and integrity
examined data governance, the process         and result in inefficient operations,
to ensure that data are managed and           disruptions of service, and fraud.
fully utilized, in six best-in class
companies to identify best practices that     We identified best practices used by
the Postal Service might adopt to             companies with successful data
optimize resources and efforts.               governance programs. We used these
                                              best practices to identify a possible
Our objective was to determine whether        implementation strategy.
the Postal Service was effectively
managing and using data in a manner           WHAT THE OIG RECOMMENDED:
that assists employees in achieving           We recommended implementing a
strategic and operational goals.              formal, enterprise-wide data governance
                                              program.

                                              Link to review the entire report
April 23, 2013

MEMORANDUM FOR:            ELLIS A. BURGOYNE
                           CHIEF INFORMATION OFFICER AND EXECUTIVE VICE
                           PRESIDENT




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – U.S. Postal Service Data Governance
                           (Report Number DP-AR-13-004(R))

This report presents the results of our audit of U.S. Postal Service Data Governance
(Project Number 12BG007FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachments

cc: James P. Cochrane
    John T. Edgar
    Corporate Audit and Response Management
U.S. Postal Service Data Governance                                                                            DP-AR-13-004(R)




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Limitations in the Postal Service’s Data Governance Program ....................................... 2

   Inconsistent Corporate-Wide Data Strategy ................................................................ 3

   Unreliable and Inaccurate Data ................................................................................... 4

   Data Inconsistencies within the Enterprise Data Warehouse ...................................... 5

   Insufficient Information Technology Security Measures............................................... 5

   Difficulties with Accessing and Sharing Data ............................................................... 6

   Opportunities to Improve the Postal Service’s Data Governance Program ................. 7

Recommendation ............................................................................................................ 8

Management’s Comments .............................................................................................. 9

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 11

   Prior Audit Coverage ................................................................................................. 13

Appendix B: List of Profiled Organizations and Rationale for Selection ........................ 15

Appendix C: Data Governance Best Practices .............................................................. 16

Appendix D: Suggested Best Practice Implementation Timeline ................................... 24

Appendix E: Management's Comments ........................................................................ 27
U.S. Postal Service Data Governance                                                              DP-AR-13-004(R)




Introduction

This report presents the results of our audit of U.S. Postal Service Data Governance
(Project Number 12BG007FF000). For fiscal year (FY) 2012, the U.S. Postal Service
Office of Inspector General (OIG) conducted a series of audits related to how the Postal
Service uses data to manage its operations. This capping report focuses upon the data
governance issues we found in those audits and other OIG audits conducted over the
last 4 years as well as additional analysis conducted. Our objective was to determine
whether the Postal Service was effectively managing and using data in a manner that
assists employees in achieving strategic and operational goals. This self-initiated audit
addresses strategic risk. See Appendix A for additional information about this audit.

The Postal Service operates one of the largest information technology (IT)
infrastructures in the world and has an inventory of 795 computer applications. Data
from many of those applications is collected into data stores and shared widely within
the Postal Service. Using those assets to make informed decisions is particularly
important for the Postal Service, as declining revenue, the struggling national economy,
and the increasingly digital nature of the world threaten its core business. Organizations
initiate data governance programs to strategically address issues similar to those faced
by the Postal Service.

Data governance is the management process ensuring important data assets are
formally managed and fully utilized throughout the organization. A 2008 survey1
revealed three primary factors that provide the impetus for data governance initiatives:
risk mitigation, revenue optimization, and cost control. Additionally, recent industry
studies on the cost of poor data governance estimate that organizations, on average,
spend $5-$8.2 million annually due to data quality issues. This cost is driven primarily
by the loss of end-user productivity that results from poorly organized, low quality, and
inaccessible data, and bad business decisions based on that data.

Conclusion

The Postal Service could improve management of critical data to assist managers and
employees in achieving strategic and operational goals. We reviewed and analyzed OIG
reports issued in FYs 2009 through 2012 and identified limitations in the Postal
Service’s data governance program, which include:

   Inconsistent corporate-wide data strategy.
   Unreliable and inaccurate data.
   Data inconsistencies within the Enterprise Data Warehouse (EDW).2

1
 Information Age magazine surveyed 279 organizations.
2
 EDW is a central, enterprise-wide database that contains information extracted from operational systems. Data
governance initiatives look to organize and centralize data warehouses to ensure data are stored correctly.
                                                           1
U.S. Postal Service Data Governance                                                           DP-AR-13-004(R)



   Insufficient IT security measures.
   Difficulties with accessing and sharing data.

Although the Postal Service defined a framework for a data governance program in a
2003 management instruction,3 full roles and responsibilities were not uniformly adopted
across all enterprise business units. In addition, the Postal Service did not create
formalized enterprise-wide data governance programs with structures, policies, and
processes to govern data storage and use. Because of limitations in the Postal
Service’s data governance program, the Postal Service risks potential vulnerabilities
that could hamper the quality, availability, and integrity of the organization’s data and
result in inefficient operations, disruptions of service, and potential fraud.

Our report outlines 34 industry data governance best practices the Postal Service
should consider to foster and institutionalize a strong culture and capability for a data
governance program.

Limitations in the Postal Service’s Data Governance Program

Currently, the Postal Service does not have a comprehensive, centralized data
governance program that better allows it to provide quality data that can be easily or
instantly accessed, essential to ensuring that managers can accomplish their goals,
further reduce costs, and improve decision making. For example, improved data quality
and availability will enable business users to more effectively analyze corporate data to
identify opportunities for cost savings and new revenue streams.

The Postal Service defined a program for a data governance program in its 2003
Management Instruction AS-860-2003-2. The guidance included roles and
responsibilities for the data stewards, portfolio managers, and business area executive
sponsors. However, full roles and responsibilities were not uniformly adopted across the
Postal Service's business units. For example, IT management require business areas to
select a data steward if they store data in the EDW. However, data stewards are not in
place to support the integrity of other critical data assets under the control of
the business areas, as required. Therefore, the Postal Service lacks consistent
enterprise -wide data management policies and organizational structures to supervise
data governance across different functional areas.

The Postal Service is committed to providing an IT infrastructure that supports
customer, corporate, and business needs. As stated in Vision 2013,4 one of the Postal
Service’s key strategies is to leverage its strengths by integrating data to improve
business decisions. In doing so, the Postal Service must update data systems and
provide a centralized data governance program to standardize reporting and eliminate
duplicate processes. Additionally, one of the Deliver Results, Innovation, Value, and


3
  Management Instruction AS-860-2003-2, Data Stewardship: Data Sharing Roles and Responsibilities, dated
March 6, 2003.
4
  Vision 2013, Five-Year Strategic Plan for 2009-2013, October 2008.

                                                       2
U.S. Postal Service Data Governance                                                                  DP-AR-13-004(R)



Efficiency (DRIVE) strategic priorities5 is enabling and empowering systems that aim to
position the Postal Service for future success.

During our audit, we reviewed and analyzed OIG reports issued during FYs 2009
through 2012 and identified 148 data-related issues. These past reports identified
significant measurable benefits that could be realized if data were better managed. We
categorized those findings within the five component areas of data governance.

Inconsistent Corporate-Wide Data Strategy

Corporate-wide data strategy describes the strategic approach to establishing and
maintaining a data governance program. Successful data governance programs require
clear delineation of roles and responsibilities of corporate stakeholders, a visible and
active leadership structure, and a defined strategic plan. During our review of OIG
reports, we noted conditions related to corporate-wide data strategy that may have been
prevented by a strengthened data governance program. For example:

   The Postal Service did not have a consistent strategy or approach for determining
    the risks and benefits of implementing cloud computing technology.6 Having a
    consistent strategy and approach to cloud computing technology would allow
    management to develop an optimal cloud computing model to increase business
    and operating efficiency and lower infrastructure cost. We estimated an annual
    potential cost savings of $2.6 million using cloud computing technology to support IT
    operations and infrastructure.

   The Postal Service’s highway contract routes (HCR) data retention policies did not
    require maintenance of detailed data beyond 120 days for historical analyses and for
    future HCR planning, contract renewal, and contractual or legal challenges by
    contractors.7 Additionally, the Postal Service did not develop an overall strategic
    framework and operational plan for using Global Positioning System technology.






5
  DRIVE is a management process the Postal Service is using to improve business strategy development and
execution. There are eight DRIVE strategic priorities, which include: Infrastructure and Operations Optimization, Total
Labor Cost, Product and Services Growth, Enabling and Empowering systems, Robust Stakeholder Management,
Robust Employee Engagement, Financial Capabilities and Cash Management, and Executive Transparency.
6
  Cloud Computing (Report Number IT-AR-12-006, dated May 9, 2012).
7
  Global Positioning System Technology for Highway Contract (Report Number NL-AR-12-009, dated
September 21, 2012).




                                                           3
U.S. Postal Service Data Governance                                                                 DP-AR-13-004(R)




Unreliable and Inaccurate Data

Data quality and consistency refer to the standards and definitions that guarantee data
are reliable, accurate, and effective when stored in a database. This component of the
data governance program includes specific policies, organizational structures, and
quality assessment methods that allow business users and functional areas to create,
download, and store data while minimizing errors and data conflicts. During our review
of OIG reports, we noted conditions related to data quality that might have been
prevented by a strengthened data governance program. For example:

    Staff did not monitor and correct contract postal unit and Post Office™ meter
     variances because documented procedures requiring such activities did not exist.10
     We reviewed variances from October 2003 through March 2012 and found
     867 meters with usage exceeding reported revenue by about $5.6 million.






    Our audit of carrier contributions to revenue generation and customer service
     showed management might be missing key opportunities to grow revenue due to
     incomplete data on sales leads.13

    Postal Service employees did not always accurately record critical data fields in the
     Electronic Facilities Management System (eFMS) database.14 We found owned
     properties smaller than 10,000 square feet often have inaccurate interior and site
     square footage measurements. Sixty-eight percent (or 151 of the 222 errors in our
     sample) occurred primarily because of eFMS system design limitations.15




10
   Processing of Meter Activity (Report Number FT-AR-12-012, dated September 6, 2012).
11
   The Manifest System is accessible from the Point-of-Sale and Advanced Computing Environment workstations.
12
   U.S. Postal Service Export Controls Monitoring Program (Report Number FT-MA-12-003, dated
September 14, 2012).
13
   Carrier Contributions to Revenue Generation and Customer Service (Report Number MS-AR-12-005, dated
June 19, 2012).
14
   The eFMS database is the official Postal Service record for real property inventory, used to manage all property-
related projects including acquisition, disposal, and repairs.
15
   Accuracy of the Electronic Facilities Management System (Report Number DA-AR-12-004, dated
September 28, 2012).

                                                          4
U.S. Postal Service Data Governance                                                                 DP-AR-13-004(R)




Data Inconsistencies within the Enterprise Data Warehouse

EDW is a central, enterprise-wide database that contains information extracted from
operational systems. Data governance initiatives look to organize and centralize data
warehouses to ensure data are stored correctly. During our review of OIG reports and
interviews with employees, we noted conditions related to storing data in and retrieving
data from the EDW that may have been prevented by a strengthened data governance
program. For example:

      Our review of the chief information officer (CIO) organization’s budget and actual
       expense data for FYs 2010 and 2011, extracted from EDW, revealed misaligned
       finance numbers and incorrect aggregations of data. The 40 misaligned finance
       numbers resulted in inaccuracies of $14.9 million of the $1.04 billion year-to-date
       expenditures.16

      Although Finance established an internal team to support Finance organizational
       activities related to the data warehouse, some other functional areas rely on
       contractors with no Postal Service operational knowledge. It can be difficult for the
       contractors to define metrics, templates, and filters for meaningful ad hoc and
       standard reports.

Insufficient Information Technology Security Measures

The risk and security component area of data governance encompasses risk
management policies and monitoring activities implemented within an organization to
eliminate unauthorized data access and theft. During our review of OIG reports, we
noted conditions that potentially compromise IT security that might have been prevented
by a strengthened data governance program. For example:

      Certification and Accreditation (C&A) is a formal security analysis and management
       approval process used to assess risk before an application is put into production.
       Management deployed at least 228 applications classified as critical to Postal
       Service operations into production before completing the required C&A process.17
       This occurred because Corporate Information Security (CIS) did not have the
       authority necessary to enforce and execute its responsibilities when dealing with
       individuals outside the CIS reporting structure or whose positions were more senior
       within the organization.





16
     Chief Information Officer’s Budget Data (Report Number IT-AR-11-007, dated August 25, 2011).
17
     State of Security (Report Number HR-AR-12-005, dated September 12, 2012).




                                                          5
U.S. Postal Service Data Governance                                                            DP-AR-13-004(R)




    Only 3,878 of the more than 340,000 required users Postal Service-wide (about
     1 percent) completed the required initial and annual information security awareness
     training in FY 2011.21






Difficulties with Accessing and Sharing Data

Data utilization describes end-user ability to effectively access, manipulate, share, and
create data without assistance of IT personnel. Organizations can provide business
user-friendly tools to enable personnel to easily generate, modify, and share analytical
reports employing corporate data. During our review of OIG reports, we noted
conditions related to data retrieval that may have been prevented by a strengthened
data governance program. For example:

    City delivery operations data were voluminous, not 'real time,' and some of the
     reports were not 'exception-based,' which would facilitate management actions.23

    The Postal Service enters into revenue sharing agreements with various partners
     who are more efficient at providing certain services and products. Management did
     not maintain a central repository for revenue sharing agreements to ensure timely,
     efficient, and accurate retrieval of information; and policies and procedures on
     establishing and monitoring revenue sharing agreements were not clear. 24

    Enterprise Consumer Care25 system performance and data issues, including
     outages and slow performance, have hindered the Postal Service’s ability to
     efficiently address and resolve complaints.26



20
   State of Corporate Information Technology Security (Report Number IT-AR-12-001, dated October 21, 2011).
21
   Security Training Awareness Program (Report Number IT-AR-12-008, dated June 25, 2012).
22
   Virtualization Technology (Report Number IT-AR-12-007, dated May 18, 2012).
23
   Delivery Operations Data Usage (Report Number DR-AR-13-001, dated October 11, 2012).
24
   Revenue Sharing Agreements (Report Number FI-AR-12-004, dated September 14, 2012).
25
   Records and tracks customer complaint information for small businesses and residential customers.
26
   Customer Complaint Resolution Process (Report Number MS-AR-12-007, dated September 10, 2012).

                                                       6
U.S. Postal Service Data Governance                                                               DP-AR-13-004(R)



    Mail processing managers did not always have sufficient information regarding mail
     processing data. Managers and employees said the availability of data are generally
     good but could be improved. For example, data from the Intelligent Mail ® barcode
     (IMb) is not readily available for 7 to 10 days. Because this is not a real-time system,
     most data can only be used for ‘after-the-fact’ analysis. Additionally, some mailers
     using IMb have more access to real-time data on mail processing and delivery than
     is available to Postal Service employees in the plants.27

    The Postal Service did not always use Powered Industrial Vehicle Management
     System (PIVMS)28 data as intended and, consequently, had not realized all possible
     efficiency improvements from the system. 29 Specifically, it did not use it to manage
     equipment operator productivity, schedule preventive maintenance, monitor vehicle
     battery usage, or identify opportunities to reduce vehicle inventory. Management
     was not aware of any established national goals or requirements to use the PIVMS
     to increase operational efficiency, had little confidence in the accuracy of system
     reports or design features, and had not trained all supervisors who use the PIVMS.

Opportunities to Improve the Postal Service’s Data Governance Program

Had the Postal Service implemented a centralized data governance program, we
believe many of the issues identified in prior OIG reports might not have occurred. To
identify how leading private sector organizations foster and institutionalize data
governance programs, we researched best practices and processes with six companies
that had advanced data governance frameworks, policies, and practices for an in-depth
study. See Appendix B for the rationale for the companies selected.

Our work identified 34 best practices the Postal Service can consider to foster and
institutionalize a strong culture and capability for a data governance program. We
explain these best practices and provide examples of how the companies apply them in
detail in Appendix C. We used these 34 best practices to develop an implementation
strategy that is divided into three phases. The phased implementation provides an
implementation approach allowing management to establish general, broad policies
before taking more specific, technical actions.

Phase I:

1. Assess existing data management practices and policies.

2. Develop organizational structure to support the governance initiative.

3. Appoint data stewards within each business unit.

27
   Timeliness of Mail Processing at Processing and Distribution Centers (Report Number NO-AR-12-010, dated
September 28, 2012).
28
   The PIVMS consists of intelligent wireless devices installed on powered industrial vehicles and client-server
software for access control, utilization analysis, real-time location tracking, and many other functions.
29
   Powered Industrial Vehicle Management System at the Indianapolis Processing and Distribution Center (Report
Number NO-AR-10-004, dated March 29, 2010).

                                                         7
U.S. Postal Service Data Governance                                          DP-AR-13-004(R)




4. Secure buy-in from business units.

Phase II:

5. Develop data performance measures.

6. Take inventory of organizational data.

7. Develop standardized data definitions.

8. Initiate data quality assessments, beginning with top priority data assets.

Phase III:

9. Develop and integrate risk management policies.

10. Develop a data classification system.

11. Develop best-in-class warehousing architecture and management policies.

12. Enhance business user tools and support.

See Appendix C for a more detailed explanation of this implementation approach. The
Postal Service can improve the quality and availability of its data by implementing these
steps. Adopting and enforcing these practices would:

   Ensure data are reliable, accurate, consistent, and effective.
   Allow consistent definitions for data across the enterprise, minimizing errors.
   Provide a clear protocol and corporate structure.
   Allow stakeholders to access, interact with, create and share data seamlessly.
   Minimize risk of a security breach or data corruption.

While it may not be practical for the Postal Service to implement all 12 steps at once, it
should implement them over a defined period. See Appendix D for suggested best
practice implementation timeline.

Recommendation

We recommend the chief information officer and executive vice president:

1. Direct the vice president, Information Technology, to implement a formal, enterprise-
   wide data governance program.




                                             8
U.S. Postal Service Data Governance                                        DP-AR-13-004(R)




Management’s Comments

Management agreed with the finding and, subsequent to their formal response, the
recommendation in this report. Management has begun establishing a formal,
enterprise-wide, data governance program and has established September 30, 2013,
for program implementation.

See Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                            9
U.S. Postal Service Data Governance                                                               DP-AR-13-004(R)




                                   Appendix A: Additional Information

Background

The Postal Service operates one of the largest IT infrastructures in the world and has an
inventory of 795 computer applications. Data from many of those applications are
collected into data stores and shared widely within the Postal Service. However,
employees may not always have access to data they need. In many of the OIG’s past
audits and risk modeling efforts, the OIG has noticed that postal data are often
voluminous but not always organized for ease of use in management decision making.

For FY 2012, the OIG embarked on a series of audits30 related to how the Postal
Service uses data to manage its operations. Most directorates identified one or more
audits that specifically addressed the use of data. We coordinated the overall efforts to
identify better ways of using data for decision making and workforce planning. In
addition, we focused our audit on Postal Service data governance and identified best
practices in best-in class companies.

Data governance is the management process ensuring important data assets are
formally managed and fully utilized throughout the enterprise. The term data
governance describes organizational structures, policies, and practices that govern data
management and use. Generally, data governance programs are comprised of core
component areas:

      Corporate-wide data strategy - corporate structure and defined protocol of data
       governance program.

      Data quality and consistency - parameters and data definitions developed to ensure
       data are reliable, accurate, consistent, and effective when stored in a database.

      Data location and warehousing - effective storage of data within data warehouses.

      Risk and security - security measures enforced by data owners and data managers
       to minimize risk.

      Data utilization - capabilities allowing business users31 to access, manipulate,
       create, and share data seamlessly.

Figure 1 summarizes the five components of a successful data governance program:




30
     There were 14 use-of-data projects announced, of which six reports were issued in FY 2012.
31
     Business users are non-IT personnel that employ and access corporate data.

                                                          10
U.S. Postal Service Data Governance                                         DP-AR-13-004(R)




                       Figure 1. Five Components of Data Governance




Source: Kaiser Associates.

Enhancements to enterprise-wide data, derived via a formalized data governance
program, will lead to more informed decision making for executive management and
business users, improved responsiveness to business needs and overall operational
savings.

Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service was effectively managing
and using data in a manner that assists employees in achieving strategic and
operational goals. To accomplish our objective, we:

   Reviewed Postal Service strategies and analyzed the requirements and availability
    of data to support them.

   Reviewed data governance-related research by reading articles from online
    resources.

   Provided 'use of data' project teams with audit steps and a questionnaire to collect
    information from Postal Service officials regarding the organization, quality, and


                                            11
U.S. Postal Service Data Governance                                                              DP-AR-13-004(R)



     accessibility of data. We received and reviewed 78 responses from the project
     teams.

    Reviewed and analyzed OIG reports32 issued in FYs 2009 through 2012 and
     identified 148 data-related issues.

    Engaged Kaiser Associates to identify how leading private sector companies foster
     and institutionalize a data governance program:

     o Conducted secondary research on data governance programs among private
       organizations to determine the best companies for study. Identified about
       20 organizations noted for excellence in data governance.

     o Conducted interviews with data governance practitioners and stakeholders at
       the 20 identified companies to test the sophistication of each corporate data
       governance program, in order to narrow the pool of target companies.

     o Identified six companies with advanced data governance programs for an in-
       depth study.33

     o Conducted interviews with internal Postal Service stakeholders to identify
       current data governance practices and concerns at Postal Service.

     o Analyzed interview findings from all six companies to distill best practices from
       this research.

    Presented our preliminary list of best practices to Postal Service management and
     obtained input on the applicability to the agency.

We conducted this performance audit from February 2012 through April 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on March 12, 2013, and included their
comments where appropriate.

We did not test the validity of controls over the Postal Service systems. We relied on the
teams that conducted the 'use of data' audits to verify the accuracy of the data with
Postal Service managers and other postal data sources. We determined that the data
were sufficiently reliable for the purposes of this report.

32
   The total number of reports included six data usage reports issued in FY 2012.
33
   In-depth study incorporated multiple primary research interviews with company subject matter experts. Conducted
interviews with IT and business personnel in identified companies to outline data governance best practices.

                                                        12
U.S. Postal Service Data Governance                                       DP-AR-13-004(R)



Prior Audit Coverage

In FY 2012, the OIG conducted a series of audits related to how the Postal Service uses
data to manage its operations. Although other previously conducted audits identified
data-related issues, they were not audits of data governance.

                                                                           Monetary
                                                       Final Report       Impact (in
           Report Title            Report Number           Date            millions)
Accuracy of the Electronic        DA-AR-12-004          9/28/2012           None
Facilities Management System
Report Results:
Postal Service employees did not always accurately record critical data fields. We
recommended management modify eFMS to address inconsistency in data entry.
Overall, management agreed that eFMS had inconsistent data with incomplete fields in
many cases.


Timeliness of Mail Processing       NO-AR-12-010            9/28/2012          None
at Processing and Distribution
Centers
Report Results:
The Postal Service made progress in improving the timeliness of mail processing by
reducing the amount of delayed mail from the previous year and improving service
performance for the timely delivery of mail. However, through Quarter 3, FY 2012, about
1.4 billion pieces of mail have been delayed. Management agreed with our
recommendations to reduce the amount of delayed mail in the network and ensure that
field personnel are properly trained in the color-coding of Standard Mail as well as the
counting and reporting of delayed mail in accordance with policies.




                                          13
    U.S. Postal Service Data Governance                                         DP-AR-13-004(R)




                                                         Final Report        Monetary
          Report Title               Report Number            Date             Impact
Use of Data Within Finance and FF-AR-12-005                9/20/2012            None
Planning’s Field Budget
Process
Report Results:
The Postal Service closed the Southeast Area in February 2011; however, it did not
move all the Southeast Area’s administrative office’s financial data to an active Postal
Service area through July 2012. We recommended using financial data to inform senior
management and other responsible parties of issues requiring resolution, such as
ongoing financial activity and contractual commitments and elevate those issues until
resolved. Management agreed with our recommendations.

Revenue Sharing Agreements           FI-AR-12-004          9/14/2012           $1.4
Report Results:
Management did not implement a process to validate postage and production revenue
data or require the alliance partner to provide monthly data on web traffic. Management
agreed with our recommendations to implement a process to monitor and communicate
goals with revenue sharing agreement partners. However, management disagreed with
our recommendation to verify registrations and purchases beyond what is currently in
place.

Customer Complaint Resolution MS-AR-12-007                 9/10/2012         $26.4
Process
Report Results:
The Postal Service was not efficiently and effectively resolving customer complaints.
Specifically, staff members were closing complaints before customers considered their
cases resolved. We recommended the Postal Service develop a mechanism to
incorporate customer feedback regarding complaint resolution into the system.
Management agreed with the recommendations.

Contract Management Data –         CA-AR-12-005          8/9/2012          None
Transportation Contract
Support System
Report Results:
The Transportation Contract Support System contained accurate data for all HCRs we
reviewed. Because of the implementation of our prior recommendation regarding
contract funding approvals, we did not make any recommendations.




                                                14
U.S. Postal Service Data Governance                                                    DP-AR-13-004(R)



        Appendix B: List of Profiled Organizations and Rationale for Selection

Initial research identified six organizations with best-in-class data governance programs
for deep-dive best practices research. These organizations can be grouped into three
general categories as shown in Table 1:

Category 1: Decentralized Best-in-Class Data Governance Programs: Organizations
that maintain a decentralized data governance structure but deploy best-in-class
policies around data quality, warehousing, and risk management.

Category 2: Centralized Best-in-Class Data Governance Programs: Organizations that
adopted a centralized data governance structure to successfully manage enterprise
data.

Category 3: In-Transition Best-in-Class Data Governance Programs: Organizations
currently undergoing major changes to internal data governance programs following
acquisition of new assets or internal reorganization.

                            Table 1. List of Profiled Organizations

   Company              Category                        Rationale for Selection
                                         Advanced data quality and warehousing developed in concert
                                          with company growth.
                                         Data quality maintained with expansion to new business
                                          sectors.
   Company A            Category 1       Best-in-class data risk and security policies.
                                         Dedicated data governance team, including a steering
                                          committee, data stewards, and subject matter experts.
                                         Recently invested in data governance 'toolkit' to improve data
   Company B                              consistency, quality, and integration.
                                         Sophisticated data governance program with codified data
                                          management structure.
                                         Data stewards and data architects work with business silos to
   Company C                              ensure data quality and consistency.
                                         Best-in-class data governance program with dedicated teams
                                          and enterprise-wide data parameters and definitions.
   Company D            Category 2       Real-time data update and analytics capabilities.
                                         Data warehouse steering committee established to oversee
                                          data governance program following a merger.
                                         Data warehouse managers ensure data governance structures
   Company E                              are maintained by silos.
                                         Formal data governance initiative began in 2011, with
                                          investment in data stewards and architects.
                                         Data governance initiative road map preserved following major
   Company F            Category 3        a acquisition.
Source: OIG analysis.




                                                 15
U.S. Postal Service Data Governance                                                            DP-AR-13-004(R)




                         Appendix C: Data Governance Best Practices

The best practices provided below apply to management of structured and unstructured
data.34 In particular, while systems and processing tools may differ by data type, overall
data management policies encompass all data types. The items following summarize
five components of a successful data governance program:

I. Corporate-Wide Data Strategy Best Practices

Initiation of Data Governance

1. Identify and involve key organizational stakeholders in data governance
   implementation process via a central data governance committee. Best-in-class
   organizations institute a committee structure to drive the data governance policy
   creation and implementation process because it allows involvement of a wide range
   of stakeholders. This structure is favored by executives as it offers opportunities to
   involve business leaders across the enterprise and help gain traction throughout all
   business units.

2. Secure executive-level sponsorship to drive adoption of data governance program
   across the organization — executive-level sponsorship is necessary to drive data
   governance traction within the organization. As Postal Service’s own experience
   shows, when new policies are introduced without sufficient sponsorship from
   organizational leadership, they are at best implemented inconsistently, or at worst,
   disregarded completely. To assure success of a data governance initiative, best-in-
   class organizations involve an executive-level sponsor to promote and champion the
   program. This executive serves as an advocate for the program and a last point of
   escalation if stakeholders do not cooperate with program policies.

3. Demonstrate the business case for a formalized enterprise data governance
   program to secure buy-in from business area executive sponsors — Data
   governance stakeholders at best-in-class organizations meet personally with
   business leaders to demonstrate the advantages (cost savings, productivity benefits)
   and the business case for data governance and obtain business unit participation.
   Both group educational sessions and one-on-one meetings with organizational
   leaders are needed to fully demonstrate the benefits of enterprise-wide data
   governance and secure organization-wide participation in program implementation.

4. Conduct an analysis of existing data governance policies within individual business
   units — Rather than building new policies from scratch, best-in-class organizations
   use existing policies as templates. By conducting surveys, organizations are able to
   identify existing policies for potential replication on an enterprise-wide level. A data
   governance initiative can thus minimize the burden of change on business units by
34
  Structured data have identifiable structures, most commonly based on methodology of rows and columns.
Unstructured data, by comparison, do not have identifiable structures.

                                                      16
U.S. Postal Service Data Governance                                        DP-AR-13-004(R)



   simply extending tried and true methods of data management beyond a single silo
   (or group of silos).

5. Carry out a complete inventory of existing data stored within business unit
   warehouses — By mapping existing data assets, organizations can best design and
   implement governance policies. The goal of the inventory process is to determine
   what data assets the organization currently owns and determine in which locations
   the assets are stored. With a comprehensive inventory at hand, the data governance
   committee can accurately assign data management responsibilities, develop a
   warehousing/storage strategy, and analyze data needs. Without a proper
   understanding of organizational data holdings, the data governance organization
   cannot accurately plan data governance program implementation or develop
   appropriate data accountability policies.

Roles and Responsibilities

6. Assign data steward responsibilities to individuals within business units and the IT
   organization to develop and oversee data governance policies — Best-in-class
   organizations assign data steward roles to existing data owners. Data stewards
   develop policies and drive policy implementation at the business unit level. To
   minimize the cost and organizational overhaul associated with data governance,
   organizations typically assign data steward roles to existing personnel. Data
   stewards must be familiar with IT capabilities as well as the needs of business users
   to effectively implement data governance policies and monitor policy adherence.

7. Assign program administrator roles with a focus on overseeing data stewardship
   program — Program administrators supervise data stewards and act as liaisons
   between data stewards and the data governance committee. This role coordinates
   the activities of the data stewards and monitors policy implementation activities.
   Program administrators also assess metrics such as data quality metrics and other
   key performance indicators (KPI) to evaluate program success.

Data Governance Policy Development

8. Drive data definition and policy creation process via the data governance committee
   with participation of business unit leaders —The data governance committee serves
   as the nucleus of policy creation. The council should consult business lines to
   secure buy-in from the organization’s silos. This body is uniquely suited for the task
   due to the broad-sweeping view of the enterprise operations of its membership, the
   vested authority within the committee, and its relatively small size. However,
   stakeholders at best-in-class organizations note that involvement of additional
   stakeholders, such as executive sponsors or subject matter experts, can significantly
   augment the policy creation and revision process. Furthermore, the involvement of
   business units in a review capacity facilitates the creation of enterprise-wide
   consensus around data governance policies.



                                           17
U.S. Postal Service Data Governance                                          DP-AR-13-004(R)



9. Assess maturity of data standards in each business unit and set maturity goals
   according to a defined timeline — Best-in-class organizations assess data standards
   across business units to create business unit-specific roadmaps for achievement of
   goals specified by data governance policies. This process begins with a formal,
   quantitative assessment of data policy and practice maturity within each silo. Data
   stewards and the data governance committee rate the business unit across a series
   of data standards, such as Data Quality, Data Integration, Reporting, and so forth,
   based on predefined policy and data parameter specifications. Then, data stewards
   and the governance committee determine the governance goals for the business
   unit over a defined timeline.

10. Tie performance evaluation measures to business unit progress in data governance
    policy implementation — To hold individuals accountable for data governance
    implementation, best-in-class organizations incorporate data governance
    responsibilities into the overall assessment of individual’s performance. Best-in-class
    organizations enact accountability measures for key stakeholders involved in the
    data governance program, such as data stewards and business unit leaders. Such
    measures may involve impact on individuals’ performance ratings or bonus
    allocation based on business unit progress in meeting data governance goals.
    Accountability measures enhance personnel commitment to data governance
    implementation and link data governance responsibilities to overall personnel
    performance.

11. Conduct regular educational sessions focused on data governance for all employees
    that handle data within the organization — Communication of new data governance
    policies to the business user community is essential for data governance program
    success. Business users must be trained to properly handle data in accordance with
    newly created policies. By equipping business users with proper data classification,
    data storage, and retrieval skills, organizations reduce the workload of IT
    departments and foster the adoption of data governance policies.

12. Define and utilize metrics to measure data governance initiative performance across
    the organization — Best-in-class organizations track metrics to measure the
    effectiveness of data governance policies. This allows stakeholders to quantify and
    demonstrate the impact of the governance initiative. These metrics, commonly
    known as KPIs, typically measure data quality, probability of risk, policy compliance,
    and cost savings. The demonstration of improvement across these areas reinforces
    the business case for data governance and fosters business unit buy-in and end-
    user participation.

II. Data Quality and Consistency Best Practices

Priority Data Identification

1. Prioritize a master set of data assets during the onset of data governance
   initiatives — Organizations define master data, or key business elements, before


                                            18
U.S. Postal Service Data Governance                                         DP-AR-13-004(R)



   introducing data quality initiatives to focus efforts in a strategic manner. Because
   these data assets represent the organization’s priorities, all data cleansing and
   definition efforts begin with them. Organizations typically task the data governance
   committee with selection of high priority data assets because the body holds an
   enterprise-wide view of data priorities.

Data Quality Assessment

2. Identify data quality issues through multilayered data quality scorecard
   assessments — Best-in-class organizations employ scorecard assessments to test
   data for errors and provide aggregate-level and detailed views of found quality
   issues. Designed by IT personnel, scorecards allow business users to analyze the
   quality level of their data without IT support. If a user’s report does not meet
   established quality standards, the organization bars the user from uploading the
   report to the warehouse. The user can then use the scorecard to self-diagnose
   found issues and resubmit for approval. The process thus alerts business users of
   quality issues and helps maintain the accuracy of data in warehouses.

3. Assign scorecard development responsibility to data stewards — Data stewards are
   tasked with scorecard development because they have a granular view of business
   units’ data. Data stewards work closely with business users to develop scorecards
   that are both easy to use and based on parameters customized to the data assets
   employed by the business unit.

4. Design user-friendly scorecards that allow business users to self-diagnose data
   quality issues — Scorecards that are user-friendly and accessible allow business
   users to self-diagnose errors and, consequently, reduce the burden on the IT
   organizations. If a business user receives a failing score from the quality
   assessment, the program supplies the rationale and details of why a certain data set
   or report failed. Business users can then self-service found quality issues and
   resubmit their data for approval.

5. Customize scorecards based on business units’ data assets and needs — Best-in-
   class organizations create customized scorecards for each business unit to enhance
   scorecard utility. Because data assets and data usage vary widely from business
   unit to business unit, a tailored approach to scorecard design is necessary for
   creation of useful and accurate data quality assessments.

6. Institute a clear schedule for scorecard reporting and assessment by data
   stewards — All data stewards at profiled companies stress the importance of
   consistent communication on the issues of data quality. By coordinating closely, data
   stewards are better able to analyze data quality issues and set quality goals within
   their business unit. Through meetings with senior data governance stakeholders,
   data stewards also inform enterprise-wide data quality initiatives with opinions rooted
   in realities of data quality performance within their business units. Data stewards at
   interviewed organizations meet weekly to coordinate on data quality initiatives within


                                            19
U.S. Postal Service Data Governance                                                                DP-AR-13-004(R)



     a business unit and hold monthly meetings with the data governance committee to
     discuss enterprise-wide governance initiatives and strategies.

Standardization of Data Definitions

7. Assign data stewards the duty of business glossary development — To ensure data
   consistency across the enterprise, organizations assign data stewards the role of
   developing a consistent set of definitions for data assets. The common definitions
   are then compiled in a business glossary that end-users across business units can
   reference when creating reports. Data stewards solicit feedback from business users
   during the process of glossary development. Without sufficient insight or feedback
   from business users, a business glossary is unlikely to be uniformly adopted across
   the organization and will thus fail at its primary purpose—the resolution of data
   consistency issues.

8. Prioritize data glossary development during initial phases of a data governance
   program — Best-in-class organizations publish a business glossary within
   12 months of data governance initiation to stop 'bad habits' of conflicting data use
   and storage. Organizations administer ongoing end-user surveys and publish a
   business glossary within this timeframe to immediately align business users on new
   protocols in creating, storing, and sharing data.

III. Data Location and Warehousing Best Practices

Lifecycle Management

1. Develop clear guidelines for data lifecycle management — Guidelines on data
   retention and disposal allow organizations to free up storage space by eliminating
   data that are no longer needed by the user community. These policies also enhance
   corporate capacity to comply with government and legal policies that require data
   storage for specified periods. Effective lifecycle management is especially significant
   for big data35 because these assets take a large toll on organizational storage
   capacity.

Data Warehouse Architecture

2. Centralize high priority master data in a single warehouse — Best-in-class
   organizations with centralized and decentralized warehouse structures house top
   priority, sensitive data in a single, autonomous warehouse. This allows IT to closely
   monitor data access around priority data and decreases the threat of a security
   breach or data corruption. The approach helps maintain a corporation’s most
   important data assets and inspires confidence in business analytics and reporting.



35
  Big data describe large data sets that cannot be analyzed via standard relationship databases and analytics tools
because of size.

                                                         20
U.S. Postal Service Data Governance                                           DP-AR-13-004(R)



3. Reserve space in the centralized enterprise warehouse for business users to store
   business-unit specific information — Best-in-class organizations reserve business
   unit-specific storage space to allow business users to store and rapidly retrieve
   information used by their silo. Business units can thus store specialized data, such
   as department specific summary tables or aggregations, in enterprise warehouses
   where it can be properly monitored and managed by the IT organization.
   Organizations that have or are moving towards a centralized warehousing structure,
   like Postal Service, thus inhibit business units for establishing siloed data marts
   without proper IT supervision.

4. Architect warehouses to automatically update with incoming data to guarantee data
   are relevant and up-to-date — Best-in-class data warehouses are engineered to
   automatically pull updated data from business users and servers, guaranteeing that
   data are current. Automated data upload stream data through a consistent channel,
   optimizing warehouse performance and enabling data users to upload data instantly.
   As a result, warehouses can support real-time business analytics functionality.

Data Warehouse Management Roles

5. Dedicate a team of IT professionals to manage data warehouses and act as a liaison
   between IT and business directors — Best-in-class corporations employ data
   warehouse groups to manage the ongoing maintenance and continuous
   improvement of enterprise warehouses (including central and distributed
   warehouses). Such groups are comprised of data engineers and architects who are
   well-versed in warehouse architecture design and understand the business needs of
   the organization. Team members maintain close contact with the data governance
   committee and work to develop new technical policies and procedures to enhance
   end-user experiences. A data warehouse group thus enables data governance
   directors to better understand the technical ramifications of governance policies and
   ensure business user needs are met.

6. Appoint IT employees to monitor data queries and enforce the established search
   protocols — Best-in-class organizations develop clear protocols for search queries
   to bar business users from unnecessarily requesting large amounts of data and
   placing a burden on the overall data retrieval system. Organizations then appoint IT
   staff to monitor data queries and hold business users who do not follow protocols
   accountable. This enforcement model drastically lowers the likelihood of business
   user circumvention of data query policies.

Data Classification

7. Develop a data classification system to sort data into distinct tiers based on
   priority — Best-in-class organizations create automated data classifications systems
   to sort data into distinct tiers based on sensitivity and relevance. The tier definitions
   are developed by the data governance committee with participation from the
   business user community. Following definition development, the IT organization


                                             21
U.S. Postal Service Data Governance                                         DP-AR-13-004(R)



   automates the classification process, tagging all incoming data with appropriate tier
   classification. This allows IT to apply storage, lifecycle management, and quality
   control policies specific to the data type within the tier.

IV. Risk and Security Best Practices

1. Merge established risk management policies with data management guidelines
   developed under the auspices of a data governance program — Data governance
   committees at interviewed organizations work closely with risk management offices
   to standardize security policies across the enterprise and incorporate them into
   overall data management guidelines. In fact, organizations often prioritize data risk
   management as one of the key tenets of the data governance program. Data
   governance policies and organizational structures reinforce existing security
   measures and centralize them across silos. Accordingly, program stakeholders
   assume responsibilities for security assessment and monitoring.

2. Set clear guidelines for data access provisioning and conduct regular reviews of
   data access rights — To minimize risk of unauthorized data access and security
   breach, best-in-class data governance programs establish a clearly defined process
   for users to gain data access rights. The process guidelines are distributed to all
   silos and implemented consistently throughout the organization. IT organizations
   then routinely review data access rights on a predetermined schedule to further
   minimize risk.

V. Data Utilization Best Practices

1. Conduct regular surveys of end-user needs to enhance data utilization — Best-in-
   class data governance organizations conduct routine assessments of business user
   opinions to understand where current tools and policies fall short. This process
   allows organizations to better meet business analytics needs of business users and
   enhance personnel and business process efficiency. Profiled programs keep a close
   pulse on end-user opinion, testing whether deployed tools or implemented policies
   are beneficial to the enterprise’s data consumers. This allows committees to quickly
   identify areas for improvement. Well-informed strategies then lead to optimized data
   utilization and end-user efficiency.

2. Develop technology resources that direct business users to appropriate parties for
   data retrieval and IT issues — Data governance committees at interviewed
   organizations work alongside IT departments to develop an IT catalogue that
   business users can use when they require assistance with data governance
   procedures, data quality policies, and storage/retrieval issues. This allows business
   users to save time when experiencing issues and quickly contact the relevant party
   for their needs. In turn, the IT department is not inundated with multiple requests
   from business users.




                                            22
U.S. Postal Service Data Governance                                                                  DP-AR-13-004(R)



3. Develop user-friendly metadata36 views to enhance warehouse data queries —
   Metadata management technology allows companies to better understand, collect,
   catalog, and manipulate enterprise data. It also provides a clear view of the
   information contained in data warehouses, accurately grouping related data and
   excluding irrelevant data. As a result, metadata expedite and simplify data searches,
   directly benefiting the business user community. Metadata management is especially
   significant in improving user ability to search big data because of the sheer size of
   these assets. Metadata also enables IT departments to automate big data
   monitoring, enhancing risk and quality management of this data type.

4. Design business intelligence dashboard tools to help business users view and
   analyze needed data — Best-in-class organizations design dashboards to allow for
   superior data analytics and increase data utilization by the business user community.
   Dashboards present data in a user-friendly format, employing charts and tables that
   can be easily manipulated by the user without the risk of data corruption.
   Dashboards are developed by IT with input from business users who specify what
   data views are most actionable for their business needs.

5. Designate an IT representative to every business user project team to assist with IT
   issues and concerns — Project-driven organizations with strong governance
   programs often assign an IT representative with a strong commitment to the
   organization’s data governance protocols to specific business projects to serve as a
   liaison between the project team and IT staff. These IT representatives assist
   business users with access rights and data retrieval for the duration of their project.
   Business users thus benefit from direct and rapid assistance of the dedicated IT
   representative. The IT representative meanwhile monitors and enforces data
   retrieval and storage protocols, propagating the goals of the data governance
   program.




36
 Metadata are structured information that describe, explain, locate, or otherwise make it easier to retrieve, use, or
manage an information resource.

                                                          23
U.S. Postal Service Data Governance                                           DP-AR-13-004(R)



    Appendix D: Suggested Best Practice Implementation Timeline

Best-in-class organizations create a detailed roadmap for best practice implementation
as part of the data governance initiative. Based on the experiences and
recommendations of interviewed organizations, we developed a suggested
implementation roadmap, divided into three phases of varying durations. Each phase
contains four key processes that should be executed in sequential order. All best
practices contained in this document have been organized under these process
elements, as illustrated in Figure 2:

                   Figure 2. Best Practices by Process Element Category
                                   Phase I: First 6 Months




Process                                                                      Component
  Step                               Best Practice                               Area
              Conduct an analysis of existing data governance policies     Corporate-wide
 Step 1
              within individual business units.                            data strategy
              Identify and involve key organizational stakeholders in
                                                                           Corporate-wide
              data governance implementation process via a central
                                                                           data strategy
              data governance committee.
 Step 2       Secure executive-level sponsorship to drive adoption of      Corporate-wide
              data governance program across the organization.             data strategy
              Assign program administrator roles with a focus on           Corporate-wide
              overseeing data stewardship program.                         data strategy
              Assign data steward responsibilities to individuals within
                                                                           Corporate-wide
 Step 3       business units and the IT organization to develop and
                                                                           data strategy
              oversee data governance policies.
              Demonstrate the business case for a formalized
                                                                           Corporate-wide
              enterprise data governance program to secure buy-in
                                                                           data strategy
              from business leaders.
              Drive data definition and policy creation process via the
                                                                           Corporate-wide
 Step 4       data governance committee with participation of
                                                                           data strategy
              business unit leaders.
              Conduct regular educational sessions focused on data
                                                                           Corporate-wide
              governance for all employees that handle data within the
                                                                           data strategy
              organization.
Source: OIG analysis.




                                              24
U.S. Postal Service Data Governance                                           DP-AR-13-004(R)



                                      Phase II: 6-12 Months




Process                                                                      Component
  Step                                Best Practice                              Area
              Define and utilize metrics to measure data governance        Corporate-wide
              initiative performance across the organization.              data strategy
              Tie performance evaluation measures to business unit         Corporate-wide
 Step 1
              progress in data governance policy implementation.           data strategy
              Assess maturity of data standards in each business unit      Corporate-wide
              and set maturity goals according to a defined timeline.      data strategy
              Carry out a complete inventory of existing data stored       Corporate-wide
 Step 2
              within business unit warehouses.                             data strategy
              Assign data stewards the duty of business glossary           Data quality and
              development.                                                 consistency
 Step 3
              Prioritize data glossary development during initial phases   data quality and
              of a data governance program.                                consistency
              Prioritize a master set of data assets during the onset of   Data quality and
              data governance initiatives.                                 consistency
              Identify data quality issues through multilayered data       Data quality and
              quality scorecard assessments.                               consistency
              Assign scorecard development responsibility to data          Data quality and
              stewards.                                                    consistency
 Step 4
              Design user-friendly scorecards that allow business          Data quality and
              users to self-diagnose data quality issues.                  consistency
              Customize scorecards based on business units’ data           Data quality and
              assets and needs.                                            consistency
              Institute a clear schedule for scorecard reporting and       Data quality and
              assessment by data stewards.                                 consistency
Source: OIG analysis.




                                               25
U.S. Postal Service Data Governance                                            DP-AR-13-004(R)



                                      Phase III: 12-24 Months




Process
  Step                             Best Practice                        Component Area
              Merge established risk management policies with
              data management guidelines developed under the           Risk and security
 Step 1       auspices of a data governance program.
              Set clear guidelines for data access provisioning and
                                                                       Risk and security
              conduct regular reviews of data access rights.
              Develop a data classification system to sort data into   Data location and
 Step 2
              distinct tiers based on priority.                        warehousing
              Develop clear guidelines for data lifecycle              Data location and
              management.                                              warehousing
              Centralize high priority master data in a single         Data location and
              warehouse.                                               warehousing
              Reserve space in the centralized enterprise
                                                                       Data location and
              warehouse for business users to store business-unit
                                                                       warehousing
              specific information.
 Step 3
              Architect warehouses to automatically update with        Data location and
              incoming data to ensure relevant and up-to-date data.    warehousing
              Dedicate a team of IT professionals to manage data
                                                                       Data location and
              warehouses and act as a liaison between IT and
                                                                       warehousing
              business directors.
              Appoint IT employees to monitor data queries and         Data location and
              enforce the established search protocols.                warehousing
              Conduct regular surveys of end-user needs to
                                                                       Data utilization
              enhance data utilization.
              Develop technology resources for business users that
              helps navigate them towards appropriate parties for      Data utilization
              data retrieval and IT issues.
              Develop user-friendly metadata views to enhance
 Step 4                                                                Data utilization
              warehouse data queries.
              Design dashboard tools to help business users view
                                                                       Data utilization
              and analyze needed data.
              Designate an IT representative to every business
              user project team to assist with IT issues and           Data utilization
              concerns.
Source: OIG analysis.




                                                26
U.S. Postal Service Data Governance                            DP-AR-13-004(R)




                           Appendix E: Management's Comments




                                          27
U.S. Postal Service Data Governance        DP-AR-13-004(R)




                                      28
